OCIE Regional Offices’ Referrals to
Enforcement




                                March 30, 2011
                                Report No. 493
                                                                UNITEO STATES
                                              SECURITIES AND EXCHANGE COMMISSION
                                                          WASHINGTON, O.C.      20S49




'
    0    '''' .. 0 .. T
        eTO" O
                          ..
                           " ... L
                                                        MEMORANDUM
                                                               March 30, 2011

                    To:                     Carlo V. di Florio, Director, Office of Compliance Inspections and
                                             Examinations (OCIE)
                                            Robert Khuzami, Director, Division of Enforcement

                    From:                   H. David Katz, Inspector General, Office of Inspector General      (OI G#~k
                    Subject:                OGlE Regional Offices' Referrals to Enforcement, Report No. 493

                    This memorandum transmits the U.S. Securities and Exchange Commission
                    DIG's final report detailing the results of our audit on OCIE regional offices'
                    referrals to the Division of Enforcement. This audit was conducted as part of our
                    continuous effort to assess management of the Commission's programs and
                    operations and as a part of our annual audit plan.

                    The final report contains seven recommendations which if implemented should
                    strengthen oversight of the enforcement referrals process in the SEC's regional
                    offices. OCIE and Enforcement concurred with all seven recommendations.
                    Your written response to the draft report has been included in Appendix V.

                    Within the next 45 days, please provide the DIG with a written corrective action
                    plan to address the recommendations that were made to your respective units.
                    The corrective action plan should include information such as the responsible
                    official/point of contact, timeframes for completing required actions, and
                    milestones identifying how you will address the recommendations that are cited
                    in the report.

                    Should you have any questions regarding this report, please do not hesitate to
                    contact me. We appreciate the courtesy and cooperation that you and your staff
                    extended to our auditor dUring this audit.

                    Attachment

                    cc:              Kayla J. Gillan, De puty Chief of Staff, Office of the Chairman
                                     Luis A. Aguilar, Co mmissioner
                                     Troy A. Paredes, Commissioner
                                     Elisse B. Walter, C ommissioner
                                     Diego T. Ruiz, Ex ecutive Director, Office of the Executive Director
                                     Lorin Reisner, De puty Director, Division of Enforcement
                                     John Walsh, Chief Counsel, Office of Compliance Inspections and
                                       Examinattons




               OCIE Regional Offices’ Referrals to Enforcement                                              March 30, 2011
               Report No. 493
                                                                        ii
OCIE Regional Offices’ Referrals to
Enforcement

                              Executive Summary
Background. The mission of the Office of Compliance Inspections and
Examinations (OCIE) is to conduct and coordinate the nationwide examination
program for entities over which the U. S. Securities and Exchange Commission
(SEC or Commission) has regulatory authority. These include broker-dealers,
investment advisers, investment companies, transfer agents, nationally
recognized statistical rating organizations, clearing agencies, and self-regulatory
organizations (SRO).

While conducting inspections and examinations, OCIE staff review the books and
records of regulated entities, conduct interviews with management and firm
employees, and analyze the entities’ operations. 1 One goal of the examination or
inspection is to determine if the registrant is in compliance with federal securities
laws and regulations. 2 When examination staff identify noncompliance with
securities laws or internal control weaknesses, the registrant is generally
provided with a deficiency letter asking that it take steps to remediate the
deficiencies, and requesting that it provide a written response. When the
registrant's noncompliance or internal control failures are considered serious,
such as when OCIE staff believe that investor funds or securities are at risk, the
staff may refer the matter to the Division of Enforcement (Enforcement).
Enforcement then determines whether to investigate the matter further and,
ultimately, whether to recommend an enforcement action to the Commission. 3
Each year, cases against regulated entities constitute a significant portion of the
Commission's enforcement actions. 4 Many of these cases are derived from the
examination program's referrals to Enforcement. 5 Examinations of broker-
dealers may also be referred to the appropriate SRO for further investigation. 6

On March 31, 2010, the SEC OIG issued a Report of Investigation entitled
Investigation of the SEC’s Response to Concerns Regarding Robert Allen
Stanford’s Alleged Ponzi Scheme (OIG Investigative Report No. 526). The OIG
found that the SEC’s Fort Worth regional office had been aware since 1997 that
Robert Allen Stanford was likely operating a Ponzi scheme. The investigation
also discovered that after a series of OCIE examinations of Stanford Group
Company (Stanford’s registered investment advisor) in which each examination

1
  Examinations by the Securities and Exchange Commission Office of Compliance Inspections and
Examinations, February 2010, p.12.
2
  Id.
3
  Id., p.18.
4
  Id.
5
  Id.
6
  Id.
OCIE Regional Offices’ Referrals to Enforcement                                         March 30, 2011
Report No. 493
                                                  iii
concluded that the likelihood of a Ponzi scheme or similar fraud existed, the
SEC’s Fort Worth Enforcement unit did not take significant action to investigate
or stop such expected fraud until late 2005. The OIG investigation found that
SEC-wide institutional influences within Enforcement did factor into its repeated
decisions not to undertake a full and thorough investigation of Stanford,
notwithstanding staff awareness that the potential fraud was growing. The OIG
investigation found that senior Fort Worth officials perceived that they were being
judged on the numbers of cases they brought, so-called “stats,” and
communicated to the Enforcement staff that novel or complex cases were
disfavored. As a result, cases like Stanford, which were not considered “quick-
hit” or “slam-dunk” cases, were not encouraged.

On September 22, 2010, the U.S. Senate Committee on Banking, Housing, and
Urban Affairs held a hearing on the SEC’s investigation and response to Robert
Allen Stanford’s alleged Ponzi scheme. The Committee heard testimony from
SEC officials about the Stanford matter and sought information concerning the
steps the agency was taking to prevent future financial frauds and restore
investor confidence. Then–Committee Chairman Christopher J. Dodd (D. Conn.)
expressed concern that there may be other instances in which Enforcement did
not pursue cases identified by regional office examiners because of the
perception that SEC headquarters in Washington was only interested in stats and
“quick hit” cases. 7 Chairman Dodd asked the Inspector General, “[W]ere there
other matters that are now showing up nationwide that were, quote, ‘novel or
more complex cases’…that were not brought, because they were novel or
complex and did not fit into that…slam dunk or quick hit?” 8 Chairman Dodd
requested that the SEC OIG conduct a review to determine if the concerns about
the Fort Worth Regional office found in the OIG’s Stanford report also existed in
other SEC regional offices.

Objectives. The overall objective of the audit was to determine whether and to
what extent OCIE examiners were frustrated in matters other than Stanford
where Enforcement did not pursue cases identified by examiners in the SEC’s
regional offices. Other audit objectives were the following:

    •   Determining if Enforcement has taken appropriate and sufficient action to
        address referrals received from OCIE examination staff in the SEC
        regional offices.
    •   Determining if problematic trends exist where appropriate action was not
        taken based on an OCIE referral and where improvements are needed
        and best practices can be identified to enhance the OCIE examination
        referral process in the SEC regional offices.

7
  U.S. Congress, Senate, Committee on Banking, Housing and Urban Affairs, Oversight of the SEC
Inspector General’s Report on the “Investigation of the SEC’s Response to Concerns Regarding Robert
Allen Stanford’s Alleged Ponzi Scheme” and Improving SEC Performance; Sep. 22, 2010, Federal News
Service, Inc. (Lexis-Nexis), p. 11.
8
  Id.
OCIE Regional Offices’ Referrals to Enforcement                                          March 30, 2011
Report No. 493
                                                  iv
Prior OIG Audit Report. The OIG’s last audit of OCIE referrals to Enforcement
was conducted in 2001 (Compliance Inspection and Examination Referrals to
Enforcement, Audit No. 322, issued June 28, 2001). The OIG found that
referrals by OCIE to Enforcement were generally efficient and effective. A
number of recommendations were made in the report to enhance the referral
process, including improving OCIE’s communication with Enforcement, the
interested divisions (i.e., Trading and Markets [formerly Market Regulation],
Investment Management, and Corporation Finance), and the alleged violator.
The OIG found that all of the recommendations from Audit No. 322 had been
closed based on our review of the Audit Recommendation Tracking System
(ARTS). 9

Results. The OIG found that examiners across the SEC regional offices are
generally satisfied with their Enforcement attorney counterparts. For example,
the OIG found through a survey of all OCIE examiners throughout the SEC’s
regional offices that most survey respondents indicated that they are either
“completely satisfied” or “somewhat satisfied” with actions taken by Enforcement
in response to examination-related referrals. Specifically, the OIG found that
when combining the responses for “completely satisfied” and “somewhat
satisfied” for respondents, the majority of SEC regional offices had a combined
level of satisfaction ranging from 70 to 87 percent. 10 We further found that where
there was dissatisfaction with the referral process, the level of concern
dramatically dropped over time and particularly in fiscal year 2010, with some
respondents identifying the newly created Asset Management Unit in
Enforcement as having significantly assisted with the acceptance rate of OCIE
referrals.

We also found that the large majority of examiners do not believe that
Enforcement will only take referrals that involve high dollar value amounts and
can easily be brought against the violator. In addition, many of the survey
participants who did believe that Enforcement was particularly concerned with
dollar thresholds or “stats” noted that this approach was more evident in the past,
“prior to Madoff.”

The OIG audit did find certain aspects of the referral process that could use
improvement. We found that OCIE sometimes presents referrals informally to
Enforcement prior to proceeding with the formal referral process. As a result,
there is a concern that not all referral-worthy matters may be captured. We also
found that internal concerns over incentives and metrics with regard to the
9
  The OIG found that during the prior audit, a recommendation was made for an interface between the
STARS and CATS2000 tracking systems used by OCIE and Enforcement, respectively. During the
fieldwork for this audit, the OIG found that an interface still does not exist between STARS and CATS2000.
The OIG found that after the prior audit was completed, the Division of Enforcement launched another case
tracking system called the HUB, which currently does not have the ability to interface with STARS.
10
   The OIG provided Enforcement and OCIE management with information concerning specific situations
where OCIE examiners had serious concerns that Enforcement action was unsatisfactory, particularly where
they believed that there was ongoing wrongdoing, for further review and appropriate action.

OCIE Regional Offices’ Referrals to Enforcement                                           March 30, 2011
Report No. 493
                                                    v
percentage of OCIE referrals being accepted by Enforcement may have led
OCIE senior officials to request that a particular referral not be captured in the
Tips, Complaints and Referrals (TCR) system to avoid the risk of having large
numbers of outstanding referrals. We also found that the level of communication
between OCIE and Enforcement after a referral is not always consistent in the
regional offices. As a result, a number of examiners expressed that they are
unaware of the current status of referrals they provided to Enforcement. Further,
OCIE and Enforcement use different systems to track referrals, and those
systems do not currently interface with each other. In addition, while the SEC
established a Home Office Enforcement Referral Review Committee to serve as
an integral part of the oversight of the referrals process, the lack of full
cooperation from some regional offices limited its ability to bring more
transparency and consistency to Enforcement decisions to pursue referrals.

Summary of Recommendations. This report recommends the following:

    1. OCIE and Enforcement should carefully review the information provided
       from the OIG survey regarding the situations where OCIE examiners
       expressed serious concerns that Enforcement action was unsatisfactory,
       particularly where the examiners believed there was ongoing wrongdoing,
       and take appropriate action, including, potentially reversing previous
       Enforcement decisions, as necessary.

    2. OCIE and Enforcement should take appropriate actions to enforce the
       policy in all regional offices that all OCIE referrals be made in writing using
       the standard Enforcement Referral Cover Memorandum or an equivalent
       record as appropriate in light of the new TCR system and other
       programmatic changes.

    3. OCIE should issue policy or guidance requiring OCIE examiners in
       regional offices to formally refer all significant matters to Enforcement, not
       merely the matters that Enforcement has already decided to accept.

    4. OCIE should take appropriate actions to enforce its policy in all regional
       offices that all OCIE referrals be uploaded into the TCR system regardless
       of whether Enforcement has accepted the referral.

    5. OCIE should ensure that all referrals currently in the Super Tracking and
       Reporting System (STARS) are appropriately and adequately updated
       with the information in the Home Office Enforcement Referral Review
       Committee spreadsheet.

    6. OCIE and Enforcement should continue their efforts to establish a
       complete interface between STARS or its equivalent, the HUB, and the
       TCR system.


OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                                  vi
    7. OCIE and Enforcement should determine what will be the future of the
       Home Office Enforcement Referral Review Committee. If the Committee
       will not continue, they should ensure that its responsibilities are carried out
       by another office or group that will continue to oversee the referral process
       and track outstanding referrals in a meaningful way.




OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                                  vii
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ....................................................................................................... viii

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 5

Findings and Recommendations ......................................................................... 7
     Finding 1: In Response to the OIG Survey Issued to OCIE Staff, Most
     Examiners Expressed Satisfaction With Enforcement ....................................... 7
                   Recommendation 1..................................................................... 13

         Finding 2: Because Some Examination-Related Referrals Are Provided
         Informally, Some Information May Not Be Captured ........................................ 14
                       Recommendation 2..................................................................... 15

         Finding 3: Some Concerns Exist That Not All OCIE Referrals Are Being
         Made and Captured in the Tips, Complaints, and Referrals System ................ 16
                      Recommendation 3..................................................................... 19
                      Recommendation 4..................................................................... 19

         Finding 4: Tracking of Referrals Could Be Improved Through Better
         Communication and Information Sharing ......................................................... 19
                       Recommendation 5..................................................................... 23
                       Recommendation 6..................................................................... 23

         Finding 5: The Home Office Enforcement Referral Review Committee Had
         Limited Success in Fulfilling Its Mission ........................................................... 23
                      Recommendation 7..................................................................... 26

Appendices
    Appendix I: Acronyms/Abbreviations............................................................... 27
    Appendix II: Scope and Methodology............................................................... 28
    Appendix III: Criteria ......................................................................................... 30
    Appendix IV: List of Recommendations ........................................................... 31
    Appendix V: Management’s Comments ........................................................... 33
    Appendix VI: OIG Response to Management’s Comments.............................. 38




OCIE Regional Offices’ Referrals to Enforcement                                                      March 30, 2011
Report No. 493
                                                         viii
Charts
     Chart 1: SEC Regional Offices’ Satisfaction With Enforcement ......................... 8
     Chart 2: Examiners Dissatisfied With Enforcement (by Year) ............................ 9
     Chart 3: Percentage of Examiners Who Believe That Enforcement Is
     Overly Concerned With Number of Cases or Statistics, by Regional Office ..... 10
     Chart 4: Percentage of Examiners Seriously Concerned About Ongoing
     Wrongdoing Where Enforcement Action Was Not Satisfactory or No
     Referral Was Made .......................................................................................... 13
     Chart 5: Method Used to Provide Examination-Related Referral ..................... 15
     Chart 6: Formal Policies and Procedures for Providing Enforcement
     Referrals........................................................................................................... 20
     Chart 7: Follow-Up With Enforcement After the Referral Was Provided .......... 21
     Chart 8: Enforcement Communications for Actions Taken or Not Taken ......... 22

Tables
     Table 1: OCIE Regional Offices’ Referrals to Enforcement (FY 2006–FY
     2010) ................................................................................................................ 2




OCIE Regional Offices’ Referrals to Enforcement                                                     March 30, 2011
Report No. 493
                                                         ix
                   Background and Objectives

Background
The mission of the Office of Compliance Inspections and Examinations (OCIE) is
to conduct and coordinate the nationwide examination program for entities over
which the U.S. Securities and Exchange Commission (SEC or Commission) has
regulatory authority. These include broker-dealers, investment advisers,
investment companies, transfer agents, nationally recognized statistical rating
organizations, clearing agencies, and self-regulatory organizations (SRO). OCIE
has examination staff located in Washington, D.C., New York, Boston,
Philadelphia, Chicago, Denver, San Francisco, Los Angeles, Miami, Atlanta, Fort
Worth, and Salt Lake City. 11

While conducting inspections and examinations, OCIE staff review the books and
records of regulated entities, conduct interviews with management and firm
employees, and analyze the entity's operations. 12 One goal of the examination
or inspection is to determine if the registrant is in compliance with federal
securities laws and regulations. 13 When examination staff identify
noncompliance with securities laws or internal control weaknesses, the registrant
is generally provided with a deficiency letter asking that it take steps to remediate
the deficiencies and provide a written response. When the registrant's
noncompliance or internal control failures are considered serious, such as when
the staff believes that investor funds or securities are at risk, the staff may refer
the matter to the Division of Enforcement (Enforcement). Enforcement then
determines whether to investigate the matter further and, ultimately, whether to
recommend an enforcement action to the Commission. Each year, cases
against regulated entities constitute a significant portion of the Commission's
enforcement actions. Many of these cases are derived from the OCIE
examination program's referrals to Enforcement. Examinations of broker-dealers
may also be referred to the appropriate SRO for further investigation. 14

As shown in table 1, OCIE has provided over 1,100 examination-related referrals
over the past five years, from fiscal year (FY) 2006 through FY 2010. The total
number of examination referrals in each FY ranged from 198 in FY 2008 to 272
in FY 2010.




11
   Examinations by the Securities and Exchange Commission Office of Compliance Inspections and
Examinations, February 2010, p. 1.
12
   Id., p.12.
13
   Id.
14
   Id., p. 18.
OCIE Regional Offices’ Referrals to Enforcement                                         March 30, 2011
Report No. 493
                                                  1
Table 1: OCIE Regional Offices’ Referrals to Enforcement (FY 2006–FY
2010)




Source: OCIE.


STARS Enforcement Referrals Examination Report. The Office of Inspector
General (OIG) found that OCIE keeps track of its referrals in the Super Tracking
and Reporting System (STARS), a computerized tracking system, and generates
a referrals report that contains such information as the examined entity, lead
examiner, matter under inquiry (MUI) opened date, MUI number, and comments
related to the status of the referral.

Examination Referrals Process. On November 8, 2006, OCIE and
Enforcement issued joint guidance for the processing and tracking of
examination-related referrals. 15 The memorandum emphasized the importance of
ensuring that a record existed for all examination referrals that were either
accepted or declined by Enforcement (or accepted and later closed) and the
reasons why Enforcement accepted or declined the examination referral. The
memorandum covered the following aspects of the referrals process:

         Making a Referral. The memorandum stated that referrals from
         examinations to Enforcement are generally made via a memorandum from
         examination staff (generally at the assistant or associate level) to
         Enforcement staff (generally to the associate, or to the deputy directors of
         Enforcement in headquarters) and should be made using the standardized
         Enforcement Referral Cover Memo. The memorandum stated that
         Enforcement and examination staff should discuss the referral, including
         its strengths and weaknesses, any novel or unique issues, and whether
         the violation is one that should be highlighted to the industry. The
         memorandum also encouraged consultation with staff in the Division of
         Investment Management (IM) and Division of Market Regulation (now the


15
  Memorandum for Field Office Heads and Associates for Enforcement and Examinations, Tracking
Examination Referrals and Investigations Generated from Referrals, Nov. 8, 2006.
OCIE Regional Offices’ Referrals to Enforcement                                       March 30, 2011
Report No. 493
                                                 2
         Division of Trading and Markets [TM]) for insight on referrals involving
         novel fact patterns and/or applications of the law.

         Regional Office Referral Committees. The memorandum stated that all
         regional offices should establish referral committees consisting of at least
         one senior examination staff member and one senior Enforcement staff
         member, with additional membership roles assigned as needed. 16 The
         memorandum stated that regional office referral committees would have
         the responsibility of assessing and tracking the status of referrals made
         from the office’s examination staff to the office’s Enforcement staff.
         Additional responsibilities of the regional office referral committees would
         include ensuring that Enforcement and examination staff systems contain
         consistent and accurate information about the status or disposition of open
         referrals and discussing the status of examination referrals previously
         made to Enforcement and potential examination referrals.

         Accepting Referrals. The memorandum stated that at the time
         Enforcement accepted a referral from the examination unit, the
         Enforcement supervisor or attorney should communicate with the
         examination staff making the referral to inform them that the referral was
         accepted. Additionally, the Enforcement staff person should provide the
         following information to the examination staff person:

             •    whether an MUI or investigation has been opened (including the
                  date the MUI or investigation was opened and MUI or investigation
                  number); 17
             •    a list of Enforcement contacts assigned to the MUI or investigation
                  and their telephone numbers.

         Following receipt of this information, the examination staff member should
         update STARS with the MUI or investigation number and Enforcement
         contact information. In the event a MUI or investigation is opened at a
         later date, Enforcement staff should provide the examination staff with the
         updated information so the examination staff can update STARS. In
         situations where the local Enforcement group is unable to pursue the
         referral due to resource constraints, Enforcement staff should work with
         senior management to identify another Enforcement group to pursue the
         referral. The Enforcement staff should notify the examination staff of the
         other Enforcement group that will investigate the referral, as well as



16
   The memorandum provided that one useful function the referral committees could provide was to discuss
from an Enforcement perspective the types of referrals that are likely to be investigation or result in an
Enforcement recommendation to the Commission.
17
   Upon receipt of a referral, the Enforcement attorneys will generally open a Matter under Inquiry (MUI)
which may subsequently lead to an investigation. In certain instances, Enforcement may proceed by
opening a formal investigation and bypassing the MUI stage.
OCIE Regional Offices’ Referrals to Enforcement                                                 March 30, 2011
Report No. 493
                                                      3
        provide the information described above, so the examination staff can
        update STARS. 18

        Memorandum. The memorandum stated that in instances where the
        Enforcement staff determined that a referral does not warrant opening a
        MUI or decide not to pursue a referral beyond the MUI stage, the
        Enforcement staff should prepare a brief memorandum explaining the
        declination or closing. This memorandum should be provided to the
        referring examination staff, as well as to the Home Office Enforcement
        Referral Review Committee, 19 whose goal was to examine trends in the
        examination referrals process. The committee was to review referrals
        where the reason for not pursuing a referral was based on resource
        constraints and to determine if assignment to another Enforcement office
        or group was possible. 20

        Timing. The memorandum provided that decisions on whether to pursue a
        referral must be made within 60 days of the referral. If a decision is made
        not to investigate the referral, a memorandum describing the reasons for
        not pursuing the referral should be prepared and sent to the relevant
        review committee(s), with a copy to examination staff who made the
        referral, within 30 days after the decision to decline or close the matter. In
        a case where an examination referral is declined, the memorandum
        should be sent to the examination staff no later than 90 days after the date
        of the referral.

        The memorandum further stated that it was the policy of examination staff
        to send a deficiency letter in all examinations. However, if Enforcement
        staff have concerns about the possibility of destruction of documents or
        other such issues, they can request that a deficiency letter not be sent. In
        such instances, communication with examination staff should occur
        promptly upon receipt of the referral.

        Closing and Investigation. The memorandum noted that occasionally a
        closing memorandum prepared in connection with an investigation
        resulting from a referral focuses on the issues tackled in an investigation
        but does not reference the possible violations that gave rise to the referral.
        To address this issue, the memorandum directed that closing memoranda
        be sent to the referring examination staff and the Home Office
        Enforcement Referral Review Committee, and should address the
        essential points of the referral.


18
   Currently, the Office of Market Intelligence (OMI) should update the TCR system to reflect the
reassignment.
19
   The Home Office Enforcement Referral Review Committee consisted of two interdivisional committees to
review referrals from the examination program to Enforcement (one for broker-dealer/transfer agent referrals
and one for investment advisor/investment company referrals).
20
   Based on testimonial evidence from discussions with management.
OCIE Regional Offices’ Referrals to Enforcement                                               March 30, 2011
Report No. 493
                                                     4
SEC OIG’s Stanford Report of Investigation. On March 31, 2010, the SEC
OIG issued a report of investigation entitled Investigation of the SEC’s Response
to Concerns Regarding Robert Allen Stanford’s Alleged Ponzi Scheme (OIG-
526). The OIG found that the SEC’s Fort Worth regional office had been aware
since 1997 that Robert Allen Stanford was likely operating a Ponzi scheme. The
investigation also discovered that after a series of OCIE examinations of the
Stanford Group Company (Stanford’s registered investment advisor) in which
each examination concluded that the likelihood of a Ponzi scheme or similar
fraud existed, the SEC’s Fort Worth Enforcement unit did not take significant
action to investigate or stop such potential fraud until late 2005. The OIG
investigation found that SEC-wide institutional influences within Enforcement did
factor into its repeated decisions not to undertake a full and thorough
investigation of Stanford, notwithstanding staff awareness that the potential fraud
was growing. The OIG investigation found that senior Fort Worth officials
perceived that they were being judged on the numbers of cases they brought, so-
called “stats,” and communicated to the Enforcement staff that novel or complex
cases were disfavored. As a result, cases like Stanford, which were not
considered “quick-hit” or “slam-dunk” cases, were not encouraged.

U.S. Senate Banking Committee Hearing. On September 22, 2010, the U.S.
Senate Committee on Banking, Housing, and Urban Affairs held a hearing on the
SEC’s investigation and response to Robert Allen Stanford’s alleged Ponzi
scheme. The committee heard testimony from SEC officials about the Stanford
matter and sought information concerning the steps the agency was taking to
prevent future financial frauds and restore investor confidence. Then–Committee
Chairman Christopher J. Dodd (D. Conn) expressed concern that there may be
other instances in which Enforcement did not pursue cases identified by regional
office examiners because of the perception that SEC headquarters in
Washington was only interested in stats and “quick hit” cases. 21 Chairman Dodd
asked the Inspector General, “[W]ere there other matters that are now showing
up nationwide that were, quote, ‘novel or more complex cases’…that were not
brought, because they were novel or complex and did not fit into that…slam dunk
or quick hit?” 22 Chairman Dodd requested that the OIG conduct a review to
determine if the concerns noted in the OIG Stanford report in the Fort Worth
regional office existed in other SEC regional offices.

Objectives
The overall objective of the audit was to determine whether and to what extent
OCIE examiners were frustrated in matters other than Stanford where


21
   U.S. Congress, Senate, Committee on Banking, Housing, and Urban Affairs, Oversight of the SEC
Inspector General’s Report on the “Investigation of the SEC’s Response to Concerns Regarding Robert
Allen Stanford’s Alleged Ponzi Scheme” and Improving SEC Performance, Sep. 22, 2010, Federal News
Service, Inc. (Lexis-Nexis), p. 11.
22
   Id.
OCIE Regional Offices’ Referrals to Enforcement                                           March 30, 2011
Report No. 493
                                                   5
Enforcement did not pursue cases identified by examiners in the SEC regional
offices. Other audit objectives were the following:

    •   Determining if Enforcement has taken appropriate and sufficient action to
        address referrals received from OCIE examination staff in the SEC
        regional offices.
    •   Determining if problematic trends exist where appropriate action was not
        taken based on an OCIE referral and where improvements are needed
        and best practices can be identified to enhance the OCIE examination
        referral process in the SEC regional offices.




OCIE Regional Offices’ Referrals to Enforcement                       March 30, 2011
Report No. 493
                                                  6
              Findings and Recommendations

Finding 1: In Response to the OIG Survey
Issued to OCIE Staff, Most Examiners
Expressed Satisfaction With Enforcement
        The majority of examiners expressed satisfaction with how
        Enforcement handled their examination referrals.

In order to elicit information concerning whether and to what extent OCIE
examiners in regional offices were frustrated that Enforcement was not pursuing
their examination referrals adequately, the OIG sent an electronic survey to OCIE
examiners in SEC regional offices concerning their level of satisfaction with
actions taken by Enforcement upon receiving examination referrals. The survey
was also intended to determine if examiners felt that a heavy emphasis on
statistics and “quick hit” cases might be influencing whether or not Enforcement
attorneys in their respective regional offices accepted referrals from the
examination unit. The OIG launched its survey on November 19, 2010, sending
it to over 700 OCIE staff in SEC regional offices. The survey was deployed for a
two-week period that ended on December 3, 2010. During this period, a total of
446 respondents began the survey and 337 (75.6 percent) completed it. The
OIG survey had 23 questions, including several open-ended questions that
allowed respondents to comment freely about a variety of issues related to the
Enforcement referrals process. Notable survey results are summarized in this
section.

Examiners in Regional Offices Are Generally Satisfied With Enforcement.
The OIG survey found that examiners across the SEC regional offices are
generally satisfied with their Enforcement attorney counterparts. For example,
the OIG found that the majority of regional office’s survey respondents indicated
that they are either “Completely Satisfied” or “Somewhat Satisfied” with actions
taken by Enforcement in response to examination-related referrals. As shown in
chart 1, the OIG found that when combining the responses for “Completely
Satisfied” and “Somewhat Satisfied” for respondents, the majority of SEC
regional offices had a level of satisfaction ranging from 70 to 87 percent.




OCIE Regional Offices’ Referrals to Enforcement                       March 30, 2011
Report No. 493
                                                  7
Chart 1: SEC Regional Offices’ Satisfaction With Enforcement




Source: OIG.


The OIG found a strong level of general satisfaction with Enforcement’s
responses. Some examiners, however, expressed dissatisfaction in particular
instances about Enforcement’s declining a referral or, in their view, taking too
long to make a decision. We received several comments expressing this view,
including the following two:

         Generally, I have been very satisfied with Enforcement's
         response to referrals. However, it's disappointing when a
         referral ultimately is not pursued.

         [I’m] generally satisfied as most referrals are taken or at
         least seriously considered. However, investigative action is
         sometimes slow and does not always result in Enforcement
         action. Also, in a couple instances, informal referrals were
         declined.

The OIG also found that some respondents believed that Enforcement declined
their referral due to increased litigation risk because the examination-related
referral was considered very complex and highly technical or because the
amount of investor harm was too small.

Other respondents indicated that a lack of support from within the SEC’s policy-
making divisions (the Division of Investment Management and the Division of
Trading and Markets) for the examination referral might have led Enforcement
not to accept the referral. This perspective was reflected in the following
comments from respondents:

         We are constantly told by OCIE and IM staff that valuation is
         a risk area, yet when we see valuation issues at a firm we
         don't get backing or support from IM Chief Counsel's office


OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                                  8
         and/or Enforcement to properly investigate.

         Enf is still working the matter. We provided good evidence,
         local enf agreed, conferred with Investment Management in
         DC who initially supported the case but then changed their
         mind about what evidence it would take to get approval for
         formal action. The case has languished since.

We requested that respondents who were dissatisfied (either somewhat or
completely) with Enforcement to indicate the year during which the dissatisfaction
occurred. The majority of these respondents indicated dissatisfaction during the
period FY 2006 through FY 2009. As shown in chart 2, for each FY from 2006
through 2009, 25 to 35 respondents indicated that they were dissatisfied with
Enforcement concerning referrals made during that year. This number
dramatically dropped for FY 2010, with only 15 respondents indicating that they
had experienced dissatisfaction during that year.

Chart 2: Examiners Dissatisfied With Enforcement (by Year)




Source: OIG.


Respondents Indicated That the New Asset Management Unit Is More
Likely to Accept Referrals. According to survey respondents, one of the factors
that has recently helped with Enforcement’s acceptance rate of referrals is the
division’s newly created Asset Management Unit. Enforcement created the
Asset Management Unit in 2010. The unit focuses on investigations involving
investment advisors, investment companies, hedge funds, and private equity
funds. 23 Some examiners indicated that the Asset Management Unit is more
willing to take on referrals that were typically denied in the past. For example,
one respondent stated the following:

         Some exams are not referred because of real and/or
         perceived Enforcement resource constraints. There are

23
   SEC Release No. 2010-5; “SEC Names New Specialized Unit Chiefs and Head of New Office of Market
Intelligence.” See http://www.sec.gov/news/press/2010/2010-5.htm.
OCIE Regional Offices’ Referrals to Enforcement                                      March 30, 2011
Report No. 493
                                                9
         exams we would have liked to have referred for recidivist
         conduct, potentially unsuitable sales to seniors, and lack of
         compliance program, however, because the lack of client
         harm or difficulty in proving unsuitable sales to seniors who
         have signed disclosure forms, referrals are not made. In the
         past, unless Enforcement was gift wrapped a referral, it was
         hard to get them to take it…However, this has gotten better
         since the establishment of the Asset Management group in
         Enforcement. It would be very beneficial if the exam staff
         had the power to levy a fine or censure.

Perception That Enforcement Is “Overly Concerned” With Statistics. The
OIG found that the large majority of examiners did not know whether or did not
believe that Enforcement will only take referrals that involve high dollar value
amounts and referrals where a case can easily be brought against the violator.
As shown in chart 3, the majority of SEC regional office examiners noted that
they did not know whether or did not believe that Enforcement was overly
concerned with statistics and the number of cases brought.

Chart 3: Percentage of Examiners Who Believe That Enforcement Is Overly
Concerned With the Number of Cases or Statistics, by Regional Office




Source: OIG.


Some survey participants did believe that Enforcement had been particularly
concerned with dollar thresholds in the past. For example, one respondent
stated the following:

         Prior to Madoff they were concerned by the number of cases
         brought. Now, there are so many, they do not need to worry
         about this "stat." The driving force behind deciding to bring
         an action continues to be whether the action merits
         additional resources or whether there is too much "litigation
         risk."


OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                                  10
In addition, some survey respondents indicated that certain types of violations
and fraud schemes are easier for Enforcement to pursue. For example, we
received the following comment:

        Sometimes it appears that Enforcement prefers to work
        cases that can be resolved in a shorter amount of time, such
        as misappropriation and ponzi schemes, and does not like to
        work regulatory cases that are more difficult to prove – even
        though these type of cases may have more far reaching
        impact on the securities industry.

Other respondents indicated that certain actions by management in evaluating
performance of attorneys has set the foundation in their mind that statistics are
the primary metric used to gauge performance and that management may revere
quantity over quality. For example, one respondent stated the following:

        While our office seems to espouse that it is quality over
        quantity that counts, every year the summary reports
        emphasize statistics - # of MUI, # of actions, # of TROs...
        They even go so far as to break it down by # of actions per
        attorney] and other such stats to demonstrate their
        efficiency. To improve these stats they have to focus on
        simple, open and shut cases.

Differing Missions of OCIE and Enforcement. Through discussions with
management, the OIG discovered that sometimes tension may arise in the
referrals process due to the differing missions and focuses of OCIE and
Enforcement. Specifically, OCIE focuses its efforts on assessing whether SEC
registrants are in compliance with securities laws, while Enforcement’s mission is
to protect investors and the markets by investigating potential violations of
securities laws and litigating the SEC’s enforcement actions. 24 In many cases,
the compliance and examination function may not identify outright fraud but will
find indicators that fraud or serious violations exist. Some examiners have
expressed the view that where there are indicators but no outright evidence of an
existing fraud, Enforcement may be reluctant to pursue the matter and
investigate if it might be difficult to quickly recapture funds for harmed investors.

Some examiners also stated that examination staff may feel pressure to identify
deficiencies because they believe that OCIE puts a heavy emphasis on the
number of significant findings. The pressure may be originating from use of a
risk-based examination approach that targets riskier firms for examination, which
in theory would produce more findings and deficiencies. For some respondents,
this has increased the risk that some referrals may be underdeveloped and of
lesser quality. For example, one respondent stated the following:

24
  Securities and Exchange Commission, Division of Enforcement, Enforcement Manual, Office of Chief
Counsel, February 8, 2011, p. 1.
OCIE Regional Offices’ Referrals to Enforcement                                        March 30, 2011
Report No. 493
                                                11
        All of management is overly focused on statistics. That's why
        Examiners are pushed to refer cases that are undeveloped
        and Enforcement is pushed to take only those cases that will
        quickly and easily result in a case. Anything overly complex
        is problematic because we don't have the time or the
        resources to conduct a proper review.

Similarly, the following respondent expressed a concern about the quality of
OCIE referrals to Enforcement:

         …. I am concerned about the Exam program in my office’s
        focus on Enforcement referrals. It seems exam management
        has figured out that no one evaluates the quality of the
        referral made (other than Enforcement saying yes or no).
        This has led to many matters being referred that probably
        should not have been. Management just seems concerned
        with getting more enforcement referrals and not having
        deference to overall Commission (Enforcement) resources.
        Overall, this creates a more dysfunctional process. It is
        makes the exam program almost like the “boy who cried
        wolf'” in that management tries to refer everything, no matter
        how serious the actual issue is. This covers exam
        management … and inflates their statistics, at the expense
        of jeopardizing] having Enforcement accept a referral when it
        is an actual significant matter.

Although the survey results overall did not show widespread concern among
examiners about Enforcement’s review of OCIE referrals, there were instances
where examiners expressed dissatisfaction with Enforcement’s response to their
referrals or with OCIE’s failure to make referrals. As shown in chart 4, the
percentage of respondents in SEC regional offices who indicated that they had
serious concern about ongoing wrongdoing where Enforcement did not take what
the examiner believed was satisfactory action or where a referral was never
made to Enforcement ranged from 8 to 36 percent.




OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                                  12
Chart 4: Percentage of Examiners Seriously Concerned About Ongoing
Wrongdoing Where Enforcement Action Was Not Satisfactory or No
Referral Was Made




Source: OIG.


While the percentage of examiners who expressed concern were relatively low, it
is important for Enforcement and OCIE management to consider the specific
situations where OCIE examiners had serious concerns that Enforcement’s
action was unsatisfactory or that a necessary referral to Enforcement was not
made, particularly where examiners believed there is ongoing wrongdoing.
Therefore, on March 3, 2011, the OIG provided senior management in
Enforcement and OCIE with a total of 28 detailed comments for additional
evaluation and consideration of potential appropriate action.

The OIG’s review of the survey comments did not reveal any situations that the
OIG believed warranted an immediate referral to the OIG’s investigative unit.
The comments included allegations of wrongdoing by investment advisers, such
as habitually overbilling clients, making false statements in SEC filings, denying
examiners access to certain required records, and disseminating nonpublic
information to outside sources who may have engaged in trading on that
information.

         Recommendation 1:

         The Office of Compliance Inspections and Examinations (OCIE) and the
         Division of Enforcement should carefully review the information provided
         from the Office of Inspector General survey regarding the situations where
         OCIE examiners expressed serious concerns that Enforcement action was
         unsatisfactory, particularly where the examiners believed there was
         ongoing wrongdoing, and take appropriate action, including potentially
         reversing previous Enforcement decisions, as necessary.




OCIE Regional Offices’ Referrals to Enforcement                        March 30, 2011
Report No. 493
                                                  13
        Management Comments. Enforcement and OCIE concurred with the
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that Enforcement and OCIE have
        concurred with this recommendation.


Finding 2: Because Some Examination-Related
Referrals Are Provided Informally, Some
Information May Not Be Captured
        OCIE sometimes presents referrals informally to
        Enforcement prior to proceeding with the formal referral
        process. As a result, there is a concern that some referral-
        worthy matters may not be captured.

Respondents Indicated that Informal, Oral Referrals Are A Common
Occurrence. The standard operating procedures, as codified in the November
2006 internal guidance for providing and tracking referrals issued by the former
directors of Enforcement and OCIE, provided that all referrals should be made in
writing, using the standard Enforcement Referral Cover Memo. 25

The OIG asked survey respondents to specify the method used for providing
referrals and found, as shown in chart 5, that the majority made their referrals
using a formal written memorandum. However, 134 of the respondents indicated
that they had made one or more referrals by means of an “informal, verbal
discussion” with Enforcement.

During the audit, the OIG selected a sample of 30 examination-related referrals
and tested whether the referral was provided in a written, formal memorandum in
accordance with Enforcement/OCIE policy. Five of the 30 referrals in our sample
did not have evidence that OCIE provided a written referral to Enforcement. An
additional 5 of the 30 referrals were provided via e-mail and the standard
Enforcement memorandum was not utilized. In several other cases, the only
evidence of the referral was the record of the referral listed in the STARS
Enforcement Referrals Examinations Report, which is intended to track whether
a referral has been accepted or declined by Enforcement.




25
  Memorandum for Field Office Heads and Associates for Enforcement and Examinations, Tracking
Examination Referrals and Investigations Generated from Referrals, November 8, 2006, page 2.

OCIE Regional Offices’ Referrals to Enforcement                                       March 30, 2011
Report No. 493
                                                  14
Chart 5: Method Used to Provide Examination-Related Referral




Source: OIG Generated


When a referral is provided orally or through a short e-mail, it may not have all
the required pertinent information. Therefore, there is risk that Enforcement will
not obtain all the necessary information required to fully analyze the referral and
determine if an investigation should be commenced. There is also risk that the
referral will not be adequately tracked.

        Recommendation 2:

        The Office of Compliance Inspections and Examinations (OCIE) and the
        Division of Enforcement should take appropriate actions to enforce the
        policy in all the regional offices that all OCIE referrals be made in writing
        using the standard Enforcement Referral Cover Memorandum or an
        equivalent record as appropriate in light of the new Tips, Complaints, and
        Referrals system and other programmatic changes.

        Management Comments. Enforcement and OCIE concurred with the
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that Enforcement and OCIE have
        concurred with this recommendation.




OCIE Regional Offices’ Referrals to Enforcement                           March 30, 2011
Report No. 493
                                                  15
Finding 3: Some Concerns Exist That Not All
OCIE Referrals Are Being Made and Captured in
the Tips, Complaints, and Referrals System
        The OIG found that management has concerns that not all
        examination referrals are being captured in the Tips,
        Complaints, and Referrals (TCR) system. As a result, there
        is a risk that not all referrals will be tracked in the
        agencywide TCR system.

The New TCR System. In March 2010, the interim TCR system was launched
and has since served as the SEC’s repository for all tips, complaints, and
referrals, including referrals provided by OCIE to Enforcement. 26 Each regional
office has a TCR system point of contact responsible for entering referrals into
the TCR system. Examination referrals are reviewed for issues or conflicts with
current, ongoing Enforcement investigations or actions. However, given its
interim state, the system is currently unable to generate all the necessary reports
desired by management to determine if referrals were properly handled.

The SEC launched the new TCR system in 2010 with a goal of enabling the
newly formed Office of Market Intelligence (OMI) to serve as a “super-user” in
reviewing and triaging tips, complaints, and referrals reported to various SEC
divisions and offices to identify recidivists and to help assign tips, complaints, and
referrals to investigators. OMI was formed to analyze tips according to internally-
developed risk criteria as well as SEC priorities, and to utilize the expertise of the
SEC's other divisions, offices, and specialized units to help analyze the tips and
identify wrongdoing. 27 OMI “is responsible for the collection, analysis, and
monitoring of the hundreds of thousands of tips, complaints, and referrals that the
SEC receives each year.” 28

High Acceptance Rate May Be Skewed. Although responses to the OIG
survey indicated that the most common response or action taken by Enforcement
upon receiving a referral from OCIE was the opening of a MUI and a subsequent
formal investigation, we found that (1) there is some concern that not all referrals
are being made and captured in the TCR system and (2) certain data may be
skewed to give the impression that there is a higher acceptance rate for referrals.
Further, we found that in some cases referrals are made only after internal,
informal discussions between OCIE and Enforcement have determined that the
likelihood of acceptance by Enforcement is high. For example, one survey
respondent stated the following:

26
   Referrals that OCIE provides to an outside SRO (e.g., the Financial Industry Regulatory Authority) are
also captured in the TCR system.
27
   SEC Press Release 2010-05, SEC Names New Specialized Unit Chiefs and Head of New Office of
Market Intelligence,” January 13, 2010, page 2. See http://www.sec.gov/news/press/2010/2010-5.htm.
28
   Id., page 1.
OCIE Regional Offices’ Referrals to Enforcement                                              March 30, 2011
Report No. 493
                                                   16
        This happens on a somewhat regular basis. Our referral
        acceptance rate is probably quite high because in IA/IC
        [investment adviser/investment company] regulation, we will
        only "refer" something after we have talked with
        Enforcement and they have decided to accept it. For exams
        that we would like Enforcement to take, but they decide not
        to, they often just will not be referred and no Enforcement
        Memo will be written. It would put the exam staff in a better
        position to refer the exams it deems worthy, and let
        Enforcement decide to decline the referral if they deem that
        to be the best course of action. Several exams the staff
        would like to refer to Enforcement are not brought to
        Enforcement's attention based on the Associate in
        Regulation determining that the matter is too small, the harm
        not large enough, or Enforcement does not have the
        resources, or some other mitigating factor that does not
        result in a referral to Enforcement from the Exam staff. There
        were supposed to be, I believe, regular meetings between
        Enforcement and Regulation. I do not know whether these
        occur. There was also supposed to be a group in D.C. that
        would take cases in the regional office staff did not have
        resources. I do not know whether this was ever used. A lot of
        these are judgment calls, but I would like to see us refer
        exams without an agreement from Enforcement that they will
        accept it. Rather we should refer what we feel is worthy.

Another respondent stated the following:

        In all cases of referrals, I first speak with Enforcement's
        Associate RD [regional director] who is responsible for
        considering and assigning referrals. If he is interested, we
        write up a referral.

Not All Referrals Are Being Captured in the TCR System. The chief of OMI
expressed concern to the OIG that not all TCR-worthy referrals are being
captured in the TCR system because of the processes in place in various
regional offices that may influence which referrals are actually recorded in the
TCR system and referred to Enforcement. For example, a regional director may
have concern that certain referrals are not going to be accepted by the
Enforcement unit due to resource constraints and may request that the referral
not be captured in the TCR system to avoid the risk of having large numbers of
outstanding referrals. The OMI chief stated that variations in office policies for
processing referrals may contribute to certain disparities in the types of referrals
being recorded in the TCR system. For example, potential referrals presented
orally to a regional referral committee may not reach the TCR system if the
committee rejects them and directs that they not be pursued. He further

OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                                  17
wondered whether incentives and metrics were appropriate to ensure that TCR-
worthy referrals are actually recorded in the TCR system and passed along to
Enforcement.

We determined that the TCR system is a work in progress. OCIE now has
procedures (issued June 2010) and updated guidance (issued August 2010) for
handling and processing examination referrals to Enforcement. 29 After
completing fieldwork for this audit, the OIG learned that the new TCR Intake and
Resolution system was deployed on March 14, 2011. 30 The updated policy
requires that all referrals to Enforcement from the examinations program be
uploaded into the TCR system. 31 Vetting with local regional Enforcement should
not factor into which referrals are loaded into the system. 32 However,
management remains concerned that the vetting process with regional
Enforcement units may be influencing the referrals that are being received by
OMI. OMI acknowledges that policies related to the tracking and processing of
referrals are in place; however, detailed procedures are needed to ensure that
the policies are adhered to by the regional offices. Up to this point, OMI has
primarily seen examination referrals provided in the TCR system indicating that
the regional Enforcement attorneys have accepted the referral and would like
OMI to assign it back to the regional office that submitted the referral. There
have been virtually no instances of examination referrals that were submitted to
the TCR system that the regional Enforcement units did not take, despite the fact
that such denials are common. There has also been a lack of examination
referrals provided in the TCR system that have been rejected by Enforcement.

The OIG performed a comparison of the examination referrals in the TCR
repository against the examination referrals listed in the STARS Enforcement
Referral Report (i.e., the universe of referrals) for FY 2010 to determine whether
all referrals identified by the examination staff were forwarded and captured in
the TCR system. We found that not all referrals listed in the STARS
Enforcement Referral Report were listed in the examination referrals in the TCR
system. For example, in the Boston regional office, there were six broker-dealer
examination referrals identified from the STARS Enforcement Referral Report.
Of the six referrals, only two were found in the TCR system. Additionally, in the
Chicago regional office, we found that there were six broker-dealer examination
referrals identified from the STARS Enforcement Referral Report. Of the six
referrals, only four were entered into the TCR system.



29
   OCIE, Procedures for Handling Tips, Complaints, and Referrals, version 2.0, June 9, 2010, and Aug.17,
2010, e-mail from OCIE associate director regarding Enforcement referrals from examination staff and the
TCR repository.
30
   SEC Administrative Notice: Tips, Complaints and Referrals (TCR) Intake and Resolution System
Implementation, Mar. 13, 2011.
31
   OCIE, Procedures for Handling Tips, Complaints, and Referrals version 2.0, June 9, 2010, and Aug. 17,
2010, e-mail from OCIE associate director regarding Enforcement Referrals from examination staff and the
TCR repository.
32
   Based on testimonial evidence from discussions with management.
OCIE Regional Offices’ Referrals to Enforcement                                             March 30, 2011
Report No. 493
                                                   18
        Recommendation 3:

        The Office of Compliance Inspections and Examinations (OCIE) should
        issue policy or guidance requiring OCIE examiners in regional offices to
        formally refer all significant matters to Enforcement, not merely the
        matters that Enforcement has already decided to accept.

        Management Comments. OCIE concurred with the recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OCIE has concurred with this
        recommendation.

        Recommendation 4:

        The Office of Compliance Inspections and Examinations (OCIE) should
        take appropriate actions to enforce its policy in all the regional offices that
        all OCIE referrals be uploaded into the TCR system regardless of whether
        Enforcement has accepted the referral.

        Management Comments. OCIE concurred with the recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OCIE has concurred with this
        recommendation.


Finding 4: Tracking of Referrals Could Be
Improved Through Better Communication and
Information Sharing
        The level of communication between OCIE and Enforcement
        after a referral has been provided is not always consistent in
        the regional offices. As a result, a number of referrals in
        STARS leave examiners with little information to ascertain
        the current status of the referral.

Respondents Are Not Aware of Internal Policies and Procedures. The
majority of respondents indicated that they did not know if their regional office or
OCIE had issued formal, written policies and procedures for handling and
processing Enforcement referrals that were provided by the examination staff.
As shown in chart 6, our survey data show that 68 percent of the respondents
indicated that they did not know whether formal policies existed in FY 2006. Our
survey data suggest that there have been some improvements in communicating

OCIE Regional Offices’ Referrals to Enforcement                            March 30, 2011
Report No. 493
                                                  19
internal policies; however, even in FY 2010, almost half of respondents indicated
that they were unaware of any formal policies.

 Chart 6: Formal Policies and Procedures for Providing Enforcement
 Referrals




 Source: OIG.


Some Respondents Indicated Their Own Lack of Follow-Up with
Enforcement Subsequent to Providing Referrals. The OIG requested survey
respondents to indicate if, after providing a referral to Enforcement, they sought
information on the status of referrals from Enforcement. The majority of
respondents indicated that they reached out to attorneys in Enforcement
subsequent to providing referrals; however, we found that there was some
disparity at the regional office level. As shown in chart 7, 80 percent or more of
respondents in the San Francisco, Los Angeles, Fort Worth, Boston, and Denver
offices responded that they followed up after the referral was provided. In
contrast, only 45 to 55 percent of examiners in the Atlanta, Chicago, and Miami
offices indicated that they followed up with Enforcement subsequent to providing
a referral.




OCIE Regional Offices’ Referrals to Enforcement                       March 30, 2011
Report No. 493
                                                  20
Chart 7: Follow-Up With Enforcement After the Referral Was Provided




 Source: OIG Generated

Some survey respondents indicated that they had followed up with Enforcement
after providing the referral because Enforcement requested their involvement
with the investigation for the referred matter. For example, the OIG learned that
some examiners were asked to be involved in legwork for the investigation,
including organizing and locating documents, participating in testimony, and
answering questions posed by the Enforcement attorneys. However, the OIG
found that some respondents expressed frustration in their attempts to connect
with Enforcement to gather information on the status of referred matters. A
number of respondents indicated that communication with attorneys to obtain the
status of referred matters is limited in their regional office to supervisors and that
they are discouraged from communicating directly with Enforcement attorneys.

Respondents Indicated That Enforcement Did Not Always Communicate
the Reason for Actions Taken or Not Taken. A sizable number of respondents
indicated that they were unaware of the reason for actions taken or not taken by
Enforcement upon receiving an examination referral; however, there was a
considerable disparity across the regional offices. For example, while more than
70 percent of survey respondents in the San Francisco, Denver, and Fort Worth
regional offices stated that Enforcement communicated the reasons for actions
taken or not taken upon receiving the examination referral, approximately 50
percent or less of respondents in the Atlanta, Miami, New York, and Philadelphia
regional offices stated that Enforcement provided the reasoning behind its
actions related to the referral.

In addition, based on testimonial evidence obtained from select survey
respondents, we found that in some cases, decisions to refer or not refer matters
to Enforcement were made by senior-level examiners; however, line-level
examiners who worked on the examinations that identified potential matters for
referral to Enforcement were not informed of the reasons behind actions taken or
not taken in response to the matters referred.

OCIE Regional Offices’ Referrals to Enforcement                           March 30, 2011
Report No. 493
                                                  21
As shown in chart 8, the majority of respondents indicated that there was
communication from Enforcement regarding the reason for actions taken or not
taken. However, we found there was a wide disparity in responses to this survey
question among the regional offices. For example, 89 percent of the
respondents in the San Francisco office indicated that Enforcement
communicated its reasons for actions taken or not taken upon receiving the
referral, while only 38 percent of the respondents in the Philadelphia office
acknowledged that such communication occurred for matters referred.

 Chart 8: Enforcement Communications for Actions Taken or Not Taken




 Source: OIG Generated


Lack of Interface Between OCIE and Enforcement Systems. OCIE and
Enforcement use different systems to track referrals, and these systems currently
do not interface with each other. Our audit found that the examiners keep a
repository of their referrals in STARS and that Enforcement tracks its
investigations in its HUB system. STARS contains information about all referrals
provided to Enforcement, but it does not always include the status of the referral.
The HUB system only includes the status of referrals for matters that have been
accepted by Enforcement and when an MUI or investigation has been opened.
Thus, examiners who do not have access to the HUB are unaware of the current
status of their referrals.

Enforcement recently launched the new TCR system, which now serves as the
agencywide repository for tips, complaints, and referrals, including those
provided by the examination function. We were informed that there are plans to
create an interface between OCIE’s examination tracking system, the HUB, and
TCR.




OCIE Regional Offices’ Referrals to Enforcement                        March 30, 2011
Report No. 493
                                                  22
        Recommendation 5:

        The Office of Compliance Inspections and Examinations should ensure
        that all referrals currently in STARS are appropriately and adequately
        updated with the information in the Home Office Enforcement Referral
        Review Committee spreadsheet.

        Management Comments. OCIE concurred with the recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OCIE has concurred with this
        recommendation.

        Recommendation 6:

        The Office of Compliance Inspections and Examinations and the Division
        of Enforcement should continue their efforts to establish a complete
        interface between STARS or its equivalent, the HUB, and the TCR
        system.

        Management Comments. Enforcement and OCIE concurred with the
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that Enforcement and OCIE have
        concurred with this recommendation.


Finding 5: The Home Office Enforcement
Referral Review Committee Had Limited
Success in Fulfilling Its Mission
        The Home Office Enforcement Referral Review Committee
        was established as an integral piece of the overall oversight
        of the referrals process; however, the lack of full cooperation
        from some regional offices limited its ability to bring more
        transparency and consistency to Enforcement decisions to
        pursue referrals.

Home Office Enforcement Referral Review Committee. The Home Office
Enforcement Referral Review Committee was established with the initial goal to
examine trends in the examination referrals process. 33 The committee consisted
of senior staff from OCIE, Enforcement, IM, and TM. Subsequent to the
issuance of guidance for tracking referrals issued on November 8, 2006, a

33
  Based on testimonial evidence from discussions with management.
OCIE Regional Offices’ Referrals to Enforcement                           March 30, 2011
Report No. 493
                                                 23
reconciliation process to track referrals was established. Toward the end of 2007
and in the beginning of 2008, the reconciliation of outstanding referrals began on
a quarterly basis.

The process started with the generation of a STARS report that identified all new
examination referrals for each regional office since the last quarter. OCIE staff
on the Home Office Enforcement Referral Review Committee looked through the
STARS report for referrals where information (e.g., Enforcement assignee, MUI
number) indicated that the referral was outstanding and had not yet escalated to
the point of a formal, ongoing investigation. The information from the STARS
report was exported into an Excel file and separated in worksheet tabs for each
regional office. The information compiled in the spreadsheet was subsequently
handed off to the Home Office Enforcement Referral Review Committee so that it
could follow up with the regional office to obtain a status update on the referrals.
Enforcement requested the regional offices to provide information on the status
of the referrals, which often consisted of printouts of the status report from the
HUB, declination memoranda or closing memoranda, an Excel spreadsheet
created by the regional offices, or an e-mail summarizing the status of the
referrals identified for the regional office in the reconciliation.

If a declination memorandum was provided from the regional office, the members
of the Home Office Enforcement Referral Review Committee examination team
would analyze the content and substance of the memorandum to assess the
reasonableness of the decision to decline the referral. In certain instances, if the
committee believed that the explanation did not appear to justify a declination of
a referral, the committee would provide the declination memorandum to
Enforcement to facilitate further consideration. Enforcement’s reasons for
declining referrals ranged from dollar values associated with the securities
violations that did not merit the use of Enforcements resources, uncertainties
regarding jurisdiction over the parties or issues involved in the matter, or
existence of an ongoing examination or investigation by another party (an SRO
or U.S. Attorney’s office) of a party or issue identified in the referral.

OIG Compliance Testing Results. The OIG selected 30 referrals from OCIE’s
examination referrals report and tested for compliance with the internal
procedures for handling and tracking referrals. We found that upon initial review
of the information in the STARS Enforcement Referral Report and other
supporting documents received for each referral in our sample, we were unable
to ascertain the current status of 10 of the 30 referrals in our sample because no
MUI number or Enforcement investigation number was listed in the STARS
Enforcement Referral Report or we did not receive a declination memorandum
indicating that Enforcement had declined the referral. Staff from OCIE and
Enforcement researched the referrals in our sample for which we were initially
unable to ascertain the current status and provided additional information to the
OIG, including the associated MUI number and HUB case report for the referrals
that had lead to investigations (both active and closed) and a current status

OCIE Regional Offices’ Referrals to Enforcement                         March 30, 2011
Report No. 493
                                                  24
update for referrals that were declined, externally referred, or pending
acceptance by Enforcement.

Further, we tested whether declined referrals were sent to the Home Office
Enforcement Referral Review Committee for possible reassignment to another
SEC regional office if the reason stated for declining by the regional Enforcement
unit was limited resources. 34 The OIG found no instances where such referrals
were sent to the Home Office Enforcement Referral Review Committee for
reassignment due to resource constraints.

The OIG also tested whether referrals were sent to the Home Office Enforcement
Referral Review Committee for possible subsequent review for declined referrals
related to investment advisor/investment company examinations. We found that
with the exception of those from the Atlanta office, no declination memoranda
were provided to the Home Office Enforcement Referral Review Committee for
review. 35

A Number of Outstanding Referrals Still Exist. Home Office Enforcement
Referral Review Committee members observed disparity in the level of detail
provided by regional offices. Only a few regional offices that provided declination
and closing memoranda to the Home Office Enforcement Referral Review
Committee on a regular basis. The staff identified Atlanta as an example of a
regional office that did provide frequent updates on the status of referrals.
However, the large majority of regional offices did not provide declination or
closing memoranda to the Home Office Enforcement Referral Review Committee
on a regular basis.

The OIG found that no referral updates had been received from the New York
regional office or the Los Angeles regional office. 36 The OIG also found that a
number of the regional offices had referrals listed in the spreadsheet dating back
to 2007 that did not have a status indicating whether or not the referral was
accepted by Enforcement. For example, the OIG found that the New York
regional office had seven referrals from Examinations occurring in 2008 that did
not indicate whether the referral had been accepted, declined, or referred
externally. The longer that these referrals remain outstanding with no update
regarding the outcome, the greater the risk that securities violations or fraud

34
   See Memorandum for Examination and Enforcement Program Managers, Communications About
Enforcement Referrals, July 31, 2007. This memorandum stated that when referrals are declined due to a
lack of resources, efforts should be made to locate another Enforcement group to handle the referral and
that the new regional referral committees should facilitate these communications. It also encouraged the
regional office committees to communicate directly with the relevant headquarters Enforcement referral
review committee whenever there might be a close call.
35
   From review of the log of declination memoranda reviewed by the Home Office Enforcement Referral
Review Committee, the OIG found that a total of only two memoranda were reviewed in 2006, five were
reviewed in 2007, six were reviewed in 2008, three were reviewed in 2009, and two were reviewed in 2010.
The overwhelming majority that were reviewed were from the Atlanta Regional Office.
36
   The OIG also obtained the September 2009 reconciliation and noted that updates were provided in
previous reconciliations by the Los Angeles Regional Office and the New York Regional Office.
OCIE Regional Offices’ Referrals to Enforcement                                              March 30, 2011
Report No. 493
                                                   25
could continue to persist without an investigation being initiated to bring action
against such violations or fraud.

In addition, few formal meetings of the Home Office Enforcement Referral
Review Committee regarding the reconciliation occurred in the last year. 37 In
November 2010, OCIE issued guidance stating that declination memoranda
would no longer be required since the TCR system would capture the reasons a
referral was declined. 38

        Recommendation 7:

        The Office of Compliance Inspections and Examinations and the Division
        of Enforcement should determine what will be the future of the Home
        Office Enforcement Referral Review Committee. If the committee will not
        continue, they should ensure that its responsibilities are carried out by
        another office or group that will oversee the referral process and track
        outstanding referrals in a meaningful way.

        Management Comments. Enforcement and OCIE have concurred with
        the recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that Enforcement and OCIE have
        concurred with this recommendation.




37
   We understand that a successor committee to the Home Office Enforcement Referral Review Committee
that includes OCIE and Enforcement staff meets regularly to discuss OCIE referrals to Enforcement..
38
   E-mail dated Nov. 29, 2010, from OMI to OCIE assistant director regarding “Policies on OCIE referrals to
Enforcement.”
OCIE Regional Offices’ Referrals to Enforcement                                             March 30, 2011
Report No. 493
                                                   26
                                                                            Appendix I


                          Acronyms/Abbreviations

       Enforcement                        Division of Enforcement
       IM                                 Division of Investment Management
       MUI                                Matter under Inquiry
       OCIE                               Office of Compliance Inspections and
                                          Examinations
       OIG                                Office of Inspector General
       OMI                                Office of Market Intelligence
       SEC or Commission                  Securities and Exchange Commission
       SRO                                Self-Regulatory Organization
       STARS                              Super Tracking and Reporting System
       TCR                                Tips, Complaints, and Referrals
       TM                                 Division of Trading and Markets




OCIE Regional Offices’ Referrals to Enforcement                             March 30, 2011
Report No. 493
                                                  27
                                                                      Appendix II


                          Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. Our scope for this audit covered all examination referrals provided by
the regional examination function to regional Enforcement for the period from FY
2006 through FY 2010. Our audit did not include a review of referrals provided
by OCIE (examination headquarters in D.C.). Our audit covered information
contained in the examination unit’s STAR system and Enforcement’s HUB
system and TCR system to gain an understanding of referrals provided by the
examination unit to the Enforcement unit. Our audit included distributing a
survey to staff employed in OCIE in SEC regional offices. The survey requested
their responses concerning referrals provided to Enforcement for the period from
FY 2006 through FY 2010. The OIG launched its survey on November 19, 2010,
sending it to over 700 OCIE staff in SEC regional offices. The survey was
deployed for a two-week period and closed on December 3, 2010. During this
period, a total of 446 respondents began the survey and 337 (75.6 percent) of
employees completed the survey. The OIG survey consisted of 23 questions.
We conducted our fieldwork from October 2010 to February 2011.

Methodology. To accomplish our overall audit objective of determining whether
and to what extent OCIE examiners were frustrated in matters other than
Stanford, we obtained and reviewed policies for providing and tracking
examination referrals that were issued jointly by OCIE and Enforcement.
Additionally, to determine if Enforcement has taken appropriate and sufficient
action to address referrals received from OCIE examination staff in the SEC’s
regional offices, we identified the universe of examination referrals provided to
Enforcement for the period FY 2006 to FY 2010 and selected a sample for
testing compliance with Enforcement’s policies and procedures for handling
referrals from the examination unit. To meet the objective of determining if
examiners were frustrated in matters other than the Stanford case and to
ascertain whether problematic trends existed where appropriate action was not
taken based on an OCIE referral, we launched an electronic survey to elicit
feedback from OCIE examiners in SEC regional offices to determine the level of
satisfaction with actions taken by Enforcement upon receiving referrals from the
examination function. The survey was also intended to determine if examiners
felt that Enforcement attorneys in their respective regional office were concerned
that heavy emphasis on statistics and quick hit cases might be influencing
whether or not Enforcement accepted referrals from the examination function.

OCIE Regional Offices’ Referrals to Enforcement                       March 30, 2011
Report No. 493
                                              Page 28
                                                                        Appendix II


We further followed up on responses we received from the survey by contacting
the survey respondents.

Internal Controls. During our audit, the OIG reviewed internal controls that
related to our audit objectives. The OIG obtained OCIE’s summary of key
internal supervisory controls and reviewed management’s internal assessment of
its key controls and activities. The OIG found that management did not identify
any significant deficiencies in internal supervisory controls as of September 30,
2010.

Use of Computer-Processed Data. We relied on information contained in the
STARS Enforcement Referral Examinations Report as the universe of OCIE
referrals in SEC regional offices. The OIG performed testing of the accuracy of
the STARS Enforcement Referral Examination Report by comparing information
for a sample of referrals from the report against the referral memoranda,
information contained in the associated examination reports, and Enforcement
case reports.

Judgmental Sampling. OCIE provided us with a list of all examination referrals
generated for the period FY 2006 through FY 2010. The universe of examination
referrals totaled 1,148 for all the SEC’s regional offices and headquarters. We
judgmentally selected 30 referrals from across the SEC regional offices and
across the FYs within our scope, excluding the referrals from headquarters for
our sample selection. In addition, our selection was made to ensure that
referrals were representative of the various entities under OCIE’s oversight, such
as broker-dealers, investment advisors, investment companies, and transfer
agents. Further, we selected a few items in our sample based on examination
referrals identified by respondents in our survey distributed to examination staff in
SEC regional offices. We did not try to project the results of the referral samples
from the regional offices to the entire population, as we did not utilize statistical
sampling techniques.

For our comparison of reports in STARS and the TCR system for examination
referrals captured and recorded in FY 2010, we examined referrals from 6 of the
SEC’s 11 regional offices. We did not try to project the results of the referral
samples from the regional offices to the entire population, as we did not utilize
statistical sampling techniques.

Prior Audit Coverage.

    •   Compliance Inspection and Examination Referrals to Enforcement, OIG
        Report No. 322, June 28, 2001.




OCIE Regional Offices’ Referrals to Enforcement                         March 30, 2011
Report No. 493
                                              Page 29
                                                                       Appendix III


                                            Criteria

Memorandum for Field Office Heads and Associates for Enforcement and
Examinations, Tracking Examination Referrals and Investigations
Generated from Referrals, November 8, 2006. Internal policy document
intended to facilitate the tracking of examination referrals and ensure that there is
a record of all examination referrals that are both accepted and declined by
Enforcement (or accepted and later closed), and the reasons why.

Office of Compliance Inspections and Examinations (OCIE) Procedures for
Handling Tips, Complaints, and Referrals, version 2.0, June 9, 2010.
Internal policy document intended to guide the entering of tips, complaints, and
referrals into the Commission’s interim TCR system and define the roles and
responsibilities of all examination staff with respect to TCRs.

Memorandum for Examination and Enforcement Program Managers,
Communications About Enforcement Referrals, July 31, 2007. Internal
policy document issued jointly by Enforcement and OCIE concerning
communications about Enforcement referrals from examinations.




OCIE Regional Offices’ Referrals to Enforcement                         March 30, 2011
Report No. 493
                                              Page 30
                                                                      Appendix IV


                         List of Recommendations

Recommendation 1:

The Office of Compliance Inspections and Examinations (OCIE) and the Division
of Enforcement should carefully review the information provided from the Office
of Inspector General survey regarding the situations where OCIE examiners
expressed serious concerns that Enforcement action was unsatisfactory,
particularly where the examiners believed there was ongoing wrongdoing, and
take appropriate action, including potentially reversing previous Enforcement
decisions, as necessary.

Recommendation 2:

The Office of Compliance Inspections and Examinations (OCIE) and the Division
of Enforcement should take appropriate actions to enforce the policy in all the
regional offices that all OCIE referrals be made in writing using the standard
Enforcement Referral Cover Memorandum or an equivalent record as
appropriate in light of the new Tips, Complaints, and Referrals system and other
programmatic changes.

Recommendation 3:

The Office of Compliance Inspections and Examinations (OCIE) should issue
policy or guidance requiring OCIE examiners in regional offices to formally refer
all significant matters to Enforcement, not merely the matters that Enforcement
has already decided to accept.

Recommendation 4:

The Office of Compliance Inspections and Examinations (OCIE) should take
appropriate actions to enforce its policy in all the regional offices that all OCIE
referrals be uploaded into the Tips, Complaints, and Referrals system regardless
of whether Enforcement has accepted the referral.

Recommendation 5:

The Office of Compliance Inspections and Examinations should ensure that all
referrals currently in STARS are appropriately and adequately updated with the
information in the Home Office Enforcement Referral Review Committee
spreadsheet.




OCIE Regional Offices’ Referrals to Enforcement                        March 30, 2011
Report No. 493
                                              Page 31
                                                                       Appendix IV


Recommendation 6:

The Office of Compliance Inspections and Examinations and the Division of
Enforcement should continue their efforts to establish a complete interface
between the Super Tracking and Review System (STARS) or its equivalent, the
HUB, and the Tips, Complaints, and Referrals system.

Recommendation 7:

The Office of Compliance Inspections and Examinations and the Division of
Enforcement should determine what will be the future of the Home Office
Enforcement Referral Review Committee. If the Committee will not continue,
they should ensure that its responsibilities are carried out by another office or
group that will continue to oversee the referral process and track outstanding
referrals in a meaningful way.




OCIE Regional Offices’ Referrals to Enforcement                          March 30, 2011
Report No. 493
                                              Page 32
                                                                                      Appendix V


                         Management’s Comments




                                        MEMORANDUM


TO:            David Kotz
               Inspector General, Office of Inspector General

FROM:          John H. Walsh                                                                      oJ
                                                                                             --'"",
               Associate Director - Chief Counsel, Designated Audit Liaison for the Office of~
               Compliance Inspections and Examinations

CC:            Carlo di Florio
               Director, Office of Compliance Inspections and Examinations

RE:            Office of Compliance Inspections and Examinations' Response to the Office of
               Inspector General's Report, Regional Offices Referrals to Enforcement

DATE:          March 24, 2011


I.      Introduction

The Office of Compliance Inspections and Examinations ("OCIE") submits this memorandum in
response to the Office of Inspector General's ("OIG") draft report entitled "Regional Offices
R~rerrals to Enforcement" ("Report"). Thank you for the opportunity to respond to the Report.
Let me also express our appreciation for the professional courtesy extended by you and your
staff during the audit.

We are pleased that your audit found that examiners across the SEC regional offices are
generally satisfied with their Enforcement attorney counterparts and intend to continue to work
with the Division of Enforcement ("Enforcement") to further strengthen our collaboration and
coordination.

You have requested that we indicate whether we "concur" or "non-concur" with each
recommendation. We "concur" with all of your recommendations. However, one of the
recommendations (Recommendation 6) directed to OClE and Enforcement will require the
deployment of significant resources. In this case we have indicated that we agree with the
recommendation, but note that it will not be completed until the necessary resources become
available. Otherwise, we state that we "concur" and describe how we intend to implement your
recommendation.

II.     RecomJnendations Directed to OCIE

Recommendation 1: The Office ofCompliance Inspections and Examinations (OCIE) and the
Division ofEnforcement should carefully review the information provided from the OIG survey
regarding the situations where OelE examiners expressed serious concerns that Enforcement
action was unsatisfactory, particularly where the examiners believed there was ongoing




OCIE Regional Offices’ Referrals to Enforcement                                        March 30, 2011
Report No. 493
                                              Page 33
                                                                                         Appendix V




 wrongdoing, and take appropriate ac/ion, including. potentially reversing previous Enforcement
 decisions. as necessary.

 aCIE concurs with this recommendation. We are in the process of reviewing the infonnation
 provided to us by the Inspector General's Office on March 3. 20 11. We have reached out to
 I-egional office management, where appropriate, and they have begun to prepare an Action Plan
 to address the findings and enhance collaboration and coordination between examiners and
 Enforcement staff. In addition, to address this recommendation, aCl£ intends to continue our
 review of the infonnation provided and anticipates reaching out to Enforcement to discuss the
 situations provided to us.

 Recommendation 2: The Office ofCompliance Inspections and Examinations (OCIE) and the
 Division ofEnforcement should take appropriate actions to enforce its policy in all the regional
 offices that all OCIE referrals be made in writing using the standard Enforcement Referral
 Cover Memorandum or an equivalent record as appropriate in light ofthe new TCR system and
 other programmatic changes.

 OCIE concurs with this recommendation and agrees that an ocrn referraJs to Enforcement
 should be made in writing. OCIE's revised TCR policies dated March 8, 2011 implement an
 equivaJent record of reference, in that they state that an examination referrals should be made to
 Enforcement via !he TCR system. SpecificallY,!he policy reads: "[ilf an OCIE examination
 results in a referral to Enforcement it will be entered into the TCR System ..... The policies also
 state that the TCR will include the examination number, the examination report. and the
 enforcement referral memorandum (if applicable).

 Recommendation 3: The Office ofCompliance InspectiOns and Examinations (OCIE) should
 issue policy or guidance requiring OCIE examiners in regional offices to formally refer all
 significant matters to Enforcement, not merely the matters that Enforcement has already decided
 to accept.

 acrE concurs with this recommendation. We agree that all examination referrals, not just those
 !hat Enforcement has already decided to accept, should be referred to Enforcement. OClE will
 issue guidance to examination program management highlighting examiners' responsibilities
 under aCrE's revised TCR policy dated March 8,2011 to enter all referrals to Enforcement into
 !he TCR system.

 Recommendation 4: The Office ofCompliance Inspections and Examinations (OCIE) should
 take appropriate actions to enforce its policy in all the regional offices that all OClE referrals be
 uploaded into the TCR system regardless ofwhether Enforcement has accepted the referral.

OCIE concurs with this recommendation. As noted in our response to Recommendation 2
above, aCrE's current TCR policy provides !hat all OCIE referrals should be uploaded into !he
TCR system. aCrE will develop a process to review referrals for compliance with these
procedures_




OCIE Regional Offices’ Referrals to Enforcement                                          March 30, 2011
Report No. 493
                                               Page 34
                                                                                    Appendix V




   Recommendation 5: The Office qfCompliance Inspections and Examin.ations should ensure that
   all referrals currently in the STARS system are appropriotely and adequately updated with the
   information in the Home Qffice Enforcement R~rerral Review Committee spreadsheet.

   OCIE concurs with this recommendation. We agree that past referrals currently in the STARS
   system should be updated with the appropriate MUI or investigation number and contact
   information (if applicable) currently available in the Home Office Enforcement Referral Review
   Committee spreadsheet.                     -

  With respect to examination referrals to Enforcement, going forward, the TCR system will
  capture the examination numbers, Enforcement's decision to accept or decline the referral, and if
  applicable, the MUr or investigation number. The TCR system will be able to track the status of
  examination referrals that are entered into the system. We will discuss with the Office of Market
  Intelligence the possibility of creating a report that tracks all outstanding referrals from the
  examination program.

  Recommendation 6: The Office ofCompliance Inspections and Examinations and the Division
  ofEnforcement should continue its efforts and establish a complete interface between the STARS
  system or its equivalent, the HUB and the TCR system.

  OCIE concurs with this recommendation. Establishing an interface between the STARS system
  or its equivalent, the HUB, and the TCR system is a priority for OCrE, but will not be completed
  within this fiscal year due to lack of technology resources. We will continue to work with
  Enforcement and the Office ofInforrnation Technology to establish this interface as resources
  become available.

  Recommendation 7: The Office ofCompliance Inspections and Examinations and the Division
  ofEnforcement should determine what will be the future ofthe Home Qtfice Referral Review
  Committee. If the Committee will not continue. they should ensure that the responsibilities are
  still carried out by another office/group. Such office or group shall continue to conduct
  oversight ofthe referral process and track outstanding referrals in a meaningful way.

  OClE concurs with this recommendation and agrees that a committee formed to oversight the
  referral process, made up of OCrE and Enforcement staff, would provide a valuable service to
  the examination program. OCIE and Enforcement have fonned a successor committee to the
  Home Office Referral Review Committee and its members will meet regularly to discuss OCrE
  referrals to Enforcement. We are working with Enforcement to define the roles and
  responsibilities ofthe committee. Additionally, as previously noted, OClE and Enforcement will
  be able to track outstanding referrals in the agency's TCR System.




OCIE Regional Offices’ Referrals to Enforcement                                      March 30, 2011
Report No. 493
                                              Page 35
                                                                                          Appendix V




                                           UNITED STATES
                              SE CURITIES AND EXCHANGE COMMISSION
                                                100 F Street, N.E.
                                              Washington, DC 20~49
 DIVISION OF.
ENFORCEMENT


                                            MEMORANDUM


    TO:            H. David Kotz, Inspector General, Office oflnspector General
    FROM:          Robert S. Khuzami, Directo r@
    RE:            Division of Enforcement's Response to the Office of Inspector General's Rep ort
                   on Audit No. 493, OClE Regional Ofjices Referrals to Enforcement      .
    DATE:          March· 28,. 2011



    I.      Introduction

    The Division of Enforcement ("Enforcement") submits this memorandum in response to the draft
    report of the Office oflnspector General ("OIG") on OIG Audit No. 493 entitled "OCIE
    Regional Offices Referrals to Enforcement" ("Report"). We appreciate the opportunity to
    respond to the.Report.

    You requested that our response indicate whether we "concur or do· not concur" with the
    recommendations. Certain of the recommendations are directed only to OCIE. With respect to
    those recommendations, we therefore defer to OCIE's response, and stand ready to assist OCIE
    as appropriate. We "concur" with the various recommendations directed to Enforcement.


    II.     Recommendations Directed to Enforcement

    Recommendation 1: The Office ofCompliance inspections and Examinations (OCIE) and the
    Division ofEnforcement should carefully review the information providedfrom the OIG survey
    regarding the situations where OCIE examiners expressed serious concerns that Enforcement
    action was unsatisfactory, particularly where the examiners believed there was ongoing
    wrongdoing, and talee appropriate action, including, potentially reversing previous Enforcement
    decisions. as necessary.

    Enforcement concurs with this recommendation, and is in the process of reviewing the above-
    referenced infonnation provided by the OIG to OeIE and Enfoccement on March 3, 2011.
    Enforcement anticipates coordinating its review, and any additional work, with OCIE to ensure
    that we continue to undertake coordinated efforts in response to OCIE referrals to Enforcement.




    OCIE Regional Offices’ Referrals to Enforcement                                       March 30, 2011
    Report No. 493
                                                  Page 36
                                                                                     Appendix V




Recommendation 2: The Office ofCompliance Inspections and Examinations (OCIE) and the
Division ofEnforcement should take appropriate actions to enforce its policy in all the regional
offices that all OCIE referrals be made in writing using the standard Enforcement Referral
Cover Memorandum or an equivalent record as appropriate in light ofthe new TCR system and
other programmatic changes.
Enforcement concurs with this recommendation and supports the joint policy of OCIE and
Enforcement that all OCIE referrals to Enforcement should be made in writing. Enforcement
understands that OCIE recently revised its TCR policies, dated March 8,2011, to state that all
examination referrals should be made to Enforcement via the TCR System. The TCR System
currently provides a mechanism for examination staff to provide written comments, along with
identifying information such as the examination number and report, with each exam referral
made to Enforcement.


Recommendation 6: The Office ofCompliance Inspections and Examinations and the Division
ofEnforcement should continue its efforts and establish a complete interface between the STARS
system or its equivalent, the HUB and the TCR system.
Enforcement concurs with this recommendation; however we recognize that implementation of a
system interface requires extensive infonnation technology resources that the agency currently
does not possess. Establishing an interface between the STARS system or its equivalent, the
HUB, and the TCR system is a priority for Enforcement, but will not be completed within this
fiscal year due to lack of technology resources. We will continue to work with OCIE and the
Office of Information Technology to establish this interface as resources become available.


Recommendation 7: The Office ofCompliance Inspections and Examinations and the Division
ofEnforcement should determine what will be the future ofthe Home Office Referral Review
Committee. If the Committee will not continue, they should ensure that the responsibilities aTe
still carried out by another office/group. Such office or group shall continue to conduct
oversight ofthe referral process and track outstanding referrals in a meaningfUL way.
Enforcement concurs with this recommendation and agrees that a centralized committee
comprised of aCIE and Enforcement stair-formed to review exam referrals would be of value to
the referral process. Enforcement and OCIE are in the process of establishing a successor
committee to the Home Office Referral Review Committee. The successor committee will
regularly review and discuss OClE referrals~ as well as regional office exam referrals. We are
currently working with OCIE to define the roles and responsibilities of the successor committee.
We believe that this mechanism for review of examination referrals will enhance the
collaboration between DelE and Enforcement, and assist each division in achieving
programmatic goals.




                                                  2




OCIE Regional Offices’ Referrals to Enforcement                                       March 30, 2011
Report No. 493
                                              Page 37
                                                                     Appendix VI


      OIG Response to Management’s Comments

We are pleased that OCIE and Enforcement have concurred with all of the
report’s 7 recommendations. We are also pleased that OCIE and Enforcement
intend to work together to address the recommendations that require a joint effort
for implementation, such as the creation of a system interface between OCIE’s
STARS application or its equivalent, Enforcement’s HUB system, and the TCR
system. We encourage OCIE and Enforcement to make available the necessary
resources to undertake this effort which will significantly improve information
sharing throughout the referrals process. We believe that the swift
implementation of all of our recommendations will result in significant
improvements to the enforcement referrals process and will ensure that all
referral-worthy matters are appropriately captured and tracked.

Once all the recommendations are fully implemented, we believe that the
resulting improvements will also help to strengthen oversight of the enforcement
referrals process in the SEC’s regional offices.




OCIE Regional Offices’ Referrals to Enforcement                       March 30, 2011
Report No. 493
                                              Page 38
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
